                                    AR 04-058




   Office of Inspector General

         Policy Review




Contractor Employee Participation
in Social Events Sponsored by the
    Federal Trade Commission
agency employees did not discuss the event with contractor management and did not require
contractor management to absorb such cost, then it is likely that FTC paid for some contractor
employees to attend agency social functions. 1

When addressing the questions, the OIG first sought to review agency policy on how
Contracting Officer’s Technical Representatives (COTR) are instructed to handle contractor
involvement in this area. After meeting with the Assistant CFO for Acquisitions the OIG
learned that there is no written policy that addresses this specific issue, nor has any guidance
been provided to COTR’s. The OIG also learned that, on occasion, this issue had been raised by
management officials but with no ultimate resolution.

The OIG also reviewed General Accounting Office (GAO) and General Services Administration
(GSA) reports and guidance to look for government wide policy pronouncements. Again, the
OIG could locate little in the way of written guidance that was directly on topic. However, in
speaking with GAO’s legal staff, the OIG learned that GAO would likely view contractor staff
involvement in planning for events or the attendance at parties as time spent in a “non-work”
status and thus would not permit such time to be billed to the government. This would be the
case even when contractor employees are invited to attend a function by an agency official.

Because of the lack of written policy and/or guidance provided to COTR’s in this area, it is
likely that contractors and their employees are also not being adequately instructed on their
involvement in and attendance at such events. Against this background the OIG decided not to
randomly select any particular contractor or COTR for a more detailed review. Instead the OIG
will leave it to management to follow-up with the agency’s contractors after it has established a
policy concerning contractor employees attending FTC social functions.

For the record the OIG recently invited its financial statement audit contractor staff to a
retirement party for an OIG employee. The OIG COTR contacted the partner in charge of the
engagement extending the invitation to him and two other auditors while making it clear that
their attendance was optional and that the contractor was not to bill the FTC for time spend at the
party. In short, attendance at this function was at the sole discretion of the contractor.

The OIG believes that a policy that provides practical guidance to agency COTR’s on the narrow
issue of contractor employees attending FTC endorsed social events (retirement events, holiday
parties, etc.) is needed. At a minium, the policy should address the following concerns:

        1.      Comply with Contract Provisions by ensuring that the agency is charged only


        1
                 Contractor over billing is not an issue when the contract is performance based (number of
units produced, etc.) or fixed price. A fixed price contract provides for a price that is not subject to any
adjustment on the basis of the Contractor's cost experience in performing the contract. The fixed price
contract places the maximum risk and full responsibility for all costs and resulting profit or loss on the
Contractor.




                                                    -2-
               for work authorized under the contract.

       2.      Encourage Teamwork by maintaining an integrated (federal and contractor)
               work force with a high esprit de corps that is committed to the goal of helping the
               American consumer.

       3.      Avoid Conflicts of Interest by removing any perception of favoritism, e.g.,
               mingling with contractors at social events, regardless of who pays, when contracts
               are being recompeted.

       4.      Avoid Personal Services by abandoning a process that appears to treat contractor
               employees as if they are performing work under a personal service contract. That
               is a process whereby agency staff directly request contractor employees to
               perform certain social event planning tasks or attend certain functions without the
               knowledge or involvement of contractor management.


                           WHO CONTROLS ATTENDANCE

Perhaps the most important question to answer when developing guidelines is who is to be
ultimately responsible for inviting contractors to attend agency events. Can contractor employees
attend because they have a close working relationship with selected FTC staff who will be in
attendance at the event? Or should agency policy require that an agency employee invite them?
If an agency employee is to invite them to an event, who should it be?

Keeping in mind Concerns 1., 2., 3., and 4., the OIG believes the best choice is to allow
contractor participation at FTC events but require an invitation from the COTR. Any agency
employee who believes a contractor employee should attend a holiday party during normal
working hours should be instructed to request of the COTR that s/he invite them to the function.

Next, who should receive the invitation? Should it go directly to the contract employee(s) who
is likely to have a personal interest in attending the event or to his/her management?

Keeping in mind the above Concerns 1. and 4., the OIG believes the only viable choice is to
forward the invitation to contractor management, naming the contractor staff invited to the
party along with the date and number of hours they are likely to be in attendance. Most
importantly, the invitation should end with a standard reminder that states that the contractor
agrees to allow its employee(s) to attend the event, with the understanding that it is not to bill the
government for the time its staff was in attendance at the event.

Of course, contractor management could decide to have its employees remain on the job and not
attend the event. But this is as it should be as under a contract, contractor management, not
agency staff, is to direct its employees. This communication chain also avoids contractor
management claiming after the fact that attendance at the event was deemed to be part of the
contractor’s normal duties and, as such, should be reimbursed as agency staff instructed
contractor employees to attend.

                                                 -3-
What are the limits to contractor participation in these events? Attendance at an FTC function at
the invitation of an FTC employee is one matter, but what about contract staff being asked or
simply volunteering to work on the planning aspects of such events?

Keeping in mind Concerns 3. and 4., the OIG does not feel that participation in these events is
entirely appropriate. At a minium if such activities are to be performed they should flow through
the same approval process as the invitation.

In conclusion, Concern1. is addressed by COTR’s routinely reminding contractors not to invoice
the agency for any time spent at FTC social function(s). Concern 2. is addressed by providing a
process whereby contractor staff can attend agency social functions assuming contractor
management permits them to do so. Concern 3. is addressed by providing the COTR with control
over the invitation process. For example, the COTR might allow contractor staff to attend a
function during the first two years of a three year contract but not attend during the third year
when a Request for Proposal to re-compete the contract is on the street, particularly if any
agency employees assigned to evaluate such proposals are also expected to be in attendance.
Finally, Concern 4. is addressed by following the same general process used every day to
administer the contract. Contractor management is involved in the process and is expected to
have the final word on which of its employees attends any agency-sponsored function.


                                RECOMMENDATIONS

To address the findings identified in this review, the OIG makes the following
recommendation:

       1. The Assistant CFO for Acquisitions (i) develop a policy that addresses the
       issue of contractor participation in FTC sponsored social events and (ii)
       distribute it to all agency COTR’s for discussion with contractor
       representatives.

       2. As no guidance was in place during the past holiday season, any COTR that
       knows that a contractor employee(s) either attended a function or worked on the
       planning for some event should ask those contractors to review their billing for
       the days/hours to determine if any adjustments might be in order. (Note: this
       recommendation applies only to contracts that require hourly billing of contractor
       employees.)




                                                 -4-
